 POSTAL REGULATORY COMMISSION

   OFFICE OF INSPECTOR GENERAL




 SEMIANNUAL REPORT TO CONGRESS



October 1, 2007 through March 31, 2008
                                  TABLE OF CONTENTS

                                                                                                  PAGE

INTRODUCTION ..........................................................................................2

ACTIVITIES OF THE OFFICE OF INSPECTOR GENERAL ....................................3

INSPECTOR GENERAL ACT REPORTS ..........................................................5

CONTACT INFORMATION.............................................................................8
INTRODUCTION
The Postal Regulatory Commission
The Postal Regulatory Commission is an independent federal agency established (as the Postal
Rate Commission) by the Postal Reorganization Act of 1970. From its establishment through the
enactment of the Postal Accountability and Enhancement Act (PAEA) of 2006, the Commission
primarily received United States Postal Service proposals for domestic mail rates and
classifications, presided over litigation regarding those proposals, and recommended rates and
classifications to the Board of Governors of the United States Postal Service. PAEA, which was
enacted on December 20, 2006, re-designated the Commission, expanded the Commission’s
jurisdiction to include international mail and service standards, and charged the Commission
with implementing a new system of postal rate regulation.

During the reporting period, the Commission made significant progress toward implementing
PAEA. The Commission’s final rules establishing the new ratemaking system became effective
on November 9, 2007, fully seven months before the deadline for final rules set by the PAEA.
As a result of the flexibilities mandated by PAEA and reflected in the Commission’s rules, the
Postal Service declined to file a final rate request under the Postal Reorganization Act of 1970
before its December 21, 2007 statutory deadline. Further, during the reporting period the
Commission made its first determinations regarding Postal Service rate increases on market
dominant and competitive products, completed its first annual compliance determination, and
issued a strategic plan.

The Postal Regulatory Commission consists of five Commissioners who are appointed for six-
year terms by the President, with the advice and consent of the Senate. No more than three of
the Commissioners can be members of the same political party. The President designates one of
the Commissioners to serve as Chairman, and the Commissioners, by majority vote, select one
Commissioner to serve as Vice Chairman.

The Office of Inspector General
The Commission established the Office of Inspector General (OIG) on June 15, 2007 and hired
the first Inspector General on June 23, 2007. During the reporting period, OIG had two full-time
employees—the Inspector General and an administrative assistant. OIG was assisted in the
conduct of its audits by two auditors on separate details from the United States Postal Service
Office of Inspector General.




                                                2
ACTIVITIES OF THE OFFICE OF INSPECTOR
GENERAL
Audit Activities
Under the Inspector General Act of 1978 as amended, the Inspector General provides policy
direction and conducts, supervises and coordinates audits relating to programs and operations of
the Postal Regulatory Commission.

During the reporting period, OIG completed two final audit reports, which are summarized
below:

Information Technology Governance and Information Security Planning
Audit Report 0702A01

OIG initiated an audit of the Commission’s information security planning and information
technology governance. OIG found that while the Commission was making improvements in
these areas, the establishment of formal, written policies, roles and documentation would ensure
continued progress and adherence to applicable federal standards. The final audit report included
five recommendations. Management agreed with all recommendations and set target dates for
implementation of each.

Imprest Fund
Audit Report 0801A01

At the Commission’s request, OIG conducted an audit of the Commission’s imprest (petty cash)
fund, which had not been audited since September, 1998. OIG found that some internal controls
over the fund and over reimbursement of local travel expenses could be improved and made nine
recommendations. Management agreed with all recommendations, and established a revised
imprest fund and expense reimbursement policy addressing the recommendations shortly after
the final audit report was issued.

As a result of information developed during our audit of the imprest fund, OIG initiated an audit
of the Commission’s controls over miscellaneous receipts. This audit was ongoing at the close
of the reporting period.

Investigative Activities
Under the Inspector General Act, OIG receives and investigates allegations of fraud, waste,
abuse and misconduct within Commission programs and operations. OIG investigations can
give rise to administrative, civil and criminal penalties.



                                                3
In order to facilitate reporting of allegations, OIG maintains a hotline (see “Contacting the Office
of Inspector General,” Page 8).

During the reporting period, OIG received thirty hotline contacts, mainly via electronic mail and
telephone. Many were complaints regarding the United States Postal Service, which OIG
forwarded for action.

During the reporting period, OIG closed one preliminary inquiry without further action. OIG did
not refer any cases to prosecutors during the reporting period.

Other Activities
Regulatory Review

Under Section 4(a)(2) of the Inspector General Act, OIG reviews drafts of proposed Commission
rules and regulations. During the reporting period, OIG provided comments regarding draft
Commission regulations and policies, including proposed policies on telework, flex-time,
information security, and imprest fund management.

Liaison Activities

The Inspector General is a member of the Executive Council on Integrity and Efficiency, which
consists primarily of IGs established under section 8(G) of the IG Act. During the reporting
period, the Inspector General attended the ECIE’s monthly meetings, along with meetings of a
working group of IGs examining transition issues raised by proposed amendments to the
Inspector General Act. OIG has also coordinated its activities with the Government
Accountability Office.

Inspection and Evaluation

OIG suspended its review of certain aspects of ratemaking under the Postal Reorganization Act
of 1970 when the Postal Service declined to file a final rate request under that law.




                                                 4
INSPECTOR GENERAL ACT REPORTS
Section 5(a) of the Inspector General Act requires the following information to be included in
semiannual reports.

5(a)(1)      Significant problems, abuses or deficiencies identified
             None.

5(a)(2)      Recommendations for corrective action
             None.

5(a)(3)      Open recommendations from previous semiannual reports
             None.

5(a)(4)      Matters referred to prosecutors, disposition
             None.

5(a)(5)      Reports of information or assistance unreasonably withheld
             None.

5(a)(6)      Listing by subject of audit reports issued
             See page 3.

5(a)(7)      Summary of particularly significant reports
             See page 3.

5(a)(8)      Statistical table – questioned costs
             Table I

5(a)(9)      Statistical table – recommendations that funds be put to better use
             Table II

5(a)(10)     Audit reports from prior reporting periods for which no management decision had
             been made
             None.

5(a)(11)     Significant revised management decisions
             None.

5(a)(12      Significant management decisions with which the IG is in disagreement
             None.

5(a)(13)     Information under section 05(b) of the FFMIA
             None.




                                                    5
Table I – Audit reports with questioned costs


                        Number of               Number of         Questione   Unsupported
                        Reports                 Recommendations   d Costs     Costs
      A. For which no 0                         0                 $0          $0
 management decision
  has been made by the
 commencement of the
       reporting period



         B. Which were 0                        0                 $0          $0
       issued during the
        reporting period

       Subtotals (A+B) 0                        0                 $0          $0

        C. For which a 0                        0                 $0          $0
  management decision
   was made during the
       reporting period


      D. For which no 0                         0                 $0          $0
  management decision
  has been made by the
   end of the reporting
                 period


      E. For which no 0                         0                 $0          $0
  management decision
   was made within six
    months of issuance




                                                    6
Table II – Audit reports with recommendations that funds be put to better use


                            Number of Reports       Number of             Dollar Value
                                                    Recommendations
 A. For which no            0                       0                     $0
 management decision
 has been made by the
 commencement of the
 reporting period

 B. Which were issued       0                       0                     $0
 during the reporting
 period
 Subtotals (A+B)            0                       0                     $0
 C. For which a             0                       0                     $0
 management decision
 was made during the
 reporting period

 D. For which no            0                       0                     $0
 management decision
 has been made by the
 end of the reporting
 period
 E. For which no            0                       0                     $0
 management decision
 was made within six
 months of issuance




                                                7
                CONTACTING THE
          OFFICE OF INSPECTOR GENERAL

  In our mission to detect and prevent waste, fraud and abuse and to
promote efficiency and economy at the Postal Regulatory Commission,
the Office of Inspector General relies on information provided by PRC
                      staff and the general public.

Contact OIG to report illegal or wasteful activities or to receive copies
                           of OIG reports:

                             Telephone:
                          202-789-6817

                               E-Mail:
                        prc-ig@prc.gov

                               Internet:
                  http://www.prc.gov/oig

                                 Mail:
           901 New York Avenue, Suite 230
             Washington, DC 20268-0001


IDENTITIES OF WRITERS AND CALLERS ARE PROTECTED TO THE FULL EXTENT
                            OF THE LAW.




                                    8
